NO. _______
________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_______________________________
CHARLES FARRAR, Petitioner,
v.
RICK RAEMISCH, ET AL., Respondents.

_____________________________

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
_____________________________
UNOPPOSED APPLICATION FOR EXTENSION OF TIME
TO FILE PETITION FOR WRIT OF CERTIORARI
_______________________________
GAIL K. JOHNSON
Johnson & Klein, PLLC
1470 Walnut St., Suite 101
Boulder, CO 80302
(303) 444-1885
gjohnson@johnsonklein.com

Counsel of Record for Petitioner

To the Honorable Sonia Sotomayor, Associate Justice of the Supreme Court of
the United States and Circuit Justice for the Tenth Circuit:
Petitioner Charles Farrar, by undersigned counsel, prays for a 60-day
extension of time, to and including January 27, 2020, in which to file a petition for a
writ of certiorari. In support of this request, counsel states:
1.

On August 29, 2019, the United States Court of Appeals for the Tenth

Circuit denied Mr. Farrar’s Petition for Rehearing. Attachment A.
2.

Mr. Farrar has 90 days from August 29, 2019, to file a petition for a

writ of certiorari. Sup. Ct. R. 13. The petition is therefore due to be filed on or
before November 27, 2019. This application is being filed at least 10 days before
that date. Sup. Ct. R. 30.2.
3.

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

4.

This case involves two potential issues challenging Mr. Farrar’s

Colorado state criminal convictions and resulting potential lifetime imprisonment:
whether a claim of actual innocence is subject to review on federal habeas and
whether convictions based on perjury violate the Due Process clause of the
Fourteenth Amendment even if the prosecution was unaware of the perjury when it
occurred. The Tenth Circuit’s published decision on the latter issue creates a split
among the circuits, and both claims are of great public importance.
5.

This appeal has attracted interest nationally from Supreme Court

litigators. Until recently, a former Solicitor General of the United States who has
argued dozens of cases before this Court had agreed to represent Mr. Farrar pro
1

bono as co-counsel with the undersigned. For many weeks undersigned counsel was
operating under the belief that this former Solictor General would be able to take
the lead on the petition for certiorari. Unfortunately, that attorney recently had to
decline the representation altogether when his law firm’s administration declined
final approval. Since receiving this news, undersigned counsel has been trying to
find a suitable replacement to co-counsel this matter with her. Undersigned
counsel has not yet herself argued a case before the Court and continues to believe
that Mr. Farrar’s interests and the important constitutional issues presented in this
case would be best served by representation from an experienced Supreme Court
practitioner. An extension of 60 days instead of 30 days is sought to increase the
likelihood that undersigned counsel will be able to obtain the assistance from such a
practitioner and to ensure that any such new co-counsel will have adequate time to
review the record and prepare the petition for certiorari.
6.

Counsel also requires additional time to coordinate with potential

amici curiae counsel and organizations who have expressed interest in supporting
Mr. Farrar’s forthcoming petition for certiorari.
7.

The requested extension of time is for 60 days, up to and including

January 27, 2020. See Sup. Ct. R. 13.5 (authorizing extension of up to 60 days for
filing a petition for writ of certiorari); Sup. Ct. R. 30.1 (if calculated due date falls on
a weekend day, then the due date is the next business day).

2

7.

Counsel has conferred with Colorado Senior Attorney General Ryan

Crane, counsel for Respondents, who states that Respondents do not oppose the
requested extension of time.
WHEREFORE, Charles Farrar respectfully asks this Court to enter an order
extending his deadline to file a petition for certiorari by 60 days, to and including
January 27, 2020.
Respectfully submitted,

s/ Gail K. Johnson

GAIL K. JOHNSON
Johnson & Klein, PLLC
1470 Walnut St., Suite 101
Boulder, CO 80302
(303) 444-1885
gjohnson@johnsonklein.com

Counsel of Record for Petitioner

3

